No.

 

IN THE

Supreme Court of the United States

 

CALVARY CHAPEL DAYTON VALLEY,

Petitioner,

F.

STEVE SISOLAK, in his official capacity as Governor of Nevada; AARON FORD, in his
official capacity as Attorney General of Nevada; FRANK HUNEWILL, in his official
capacity as Sheriff of Lyon County,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Petition for a Writ
of Certiorari Before Judgment contains 8,875 words, excluding the parts of the brief
that are exempted by Supreme Court Rule 33.1(d).

n

Executed on November 3, 2020. }
OO Ayuseh
URSA !

JOHN F BuRS

ALLIANCE DEFENDING FREEDOM
440 First Street, NW, Suite 600
Washington, DC 20001

(616) 450-4235
jbursch@ADFlegal.org

Counsel for Petitioner

 
